<html>
<title> - DESTRUCTION OF RECORDS AT EPA: WHEN RECORDS MUST BE KEPT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     DESTRUCTION OF RECORDS AT EPA:
                       WHEN RECORDS MUST BE KEPT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2015

                               __________

                           Serial No. 114-13

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

                               ___________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-891 PDF                   WASHINGTON : 2015                         
             
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5b2a5ba95b6a0a6a1bdb0b9a5fbb6bab8fb">[email&#160;protected]</a>  
             
             
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, TEXAS
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              VACANT
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
RANDY WEBER, Texas                   AMI BERA, California
JOHN MOOLENAAR, Michigan             DON S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   VACANT
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             March 26, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Donald S. Beyer, Jr, Ranking Minority 
  Member, Subcommittee on Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    17
    Written Statement............................................    18

                               Witnesses:

Mr. Paul M. Wester, Jr., Chief Records Officer, National Archives 
  and Records Administration
    Oral Statement...............................................    19
    Written Statement............................................    22

Mr. Kevin Christensen, Assistant Inspector General for Audit, 
  Office of Inspector General, Environmental Protection Agency
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. David Schnare, Former Sr. Attorney, EPA Office of Enforcement 
  and Compliance Assurance; Director, Free-Market Environmental 
  Law Clinic; Director, Center for Environmental Stewardship, 
  Thomas Jefferson Institute for Public Policy; General Counsel, 
  Energy & Environment Legal Institute
    Oral Statement...............................................    38
    Written Statement............................................    40

Discussion.......................................................    50

             Appendix I: Answers to Post-Hearing Questions

Mr. Paul M. Wester, Jr., Chief Records Officer, National Archives 
  and Records Administration.....................................    70

Mr. Kevin Christensen, Assistant Inspector General for Audit, 
  Office of Inspector General, Environmental Protection Agency...    80

Dr. David Schnare, Former Sr. Attorney, EPA Office of Enforcement 
  and Compliance Assurance; Director, Free-Market Environmental 
  Law Clinic; Director, Center for Environmental Stewardship, 
  Thomas Jefferson Institute for Public Policy; General Counsel, 
  Energy & Environment Legal Institute...........................    88

            Appendix II: Additional Material for the Record

McCarthy text....................................................   112

EPA Web Collaboration Tools......................................   116

Senate EPW letter to EPA OIG re EPA OIG 2013 report..............   119

EPA OIG 2013 report re EPAs Use of Private and Alias Email 
  Accounts.......................................................   123

Senate EPW Minority Report re EPAs FOIA and Federal Records 
  Failures Uncovered.............................................   150


                     DESTRUCTION OF RECORDS AT EPA:.
                       WHEN RECORDS MUST BE KEPT

                              ----------                              


                        THURSDAY, MARCH 26, 2015

                  House of Representatives,
                      Subcommittee on Environment &
                          Subcommittee on Oversight
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:26 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barry 
Loudermilk [Chairman of the Subcommittee on Oversight] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Loudermilk. The Committee on Science, Space, and 
Technology joint hearing of the Subcommittee on Oversight and 
the Subcommittee on Environment will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Committee at any time.
    Good morning, and welcome today to the hearing titled 
``Destruction of Records at EPA: When Records Must Be Kept.''
    In front of you are packets containing the written 
testimony, biographies, and Truth in Testimony disclosures for 
today's witnesses.
    I recognize myself for five minutes for an opening 
statement.
    Good morning, everyone. I want to welcome and thank all of 
our witnesses for being here today. As you might know, it was 
brought to this Committee's attention last fall that the 
Environmental Protection Agency deleted thousands of text 
messages that it may have needed to preserve as federal 
records. At that time, EPA spokeswoman Liz Purchia was quoted 
as saying that, ``The agency maintains that the text messages 
neither had to be preserved nor were subject to disclosure. The 
text messages can be legally deleted.''
    It is stated in the Federal Records Act that the head of 
each federal agency shall make and preserve records containing 
adequate and proper documentation of the organization, 
functions, policies, decisions, procedures, and essential 
transactions of the agency and designed to furnish the 
information necessary to protect the legal and financial rights 
of the government and of persons directly affected by the 
agency's activities. The Federal Records Act was updated this 
past September to further clarify that it is the information 
that is important to preserve and not the medium in which that 
information was created or received. This amendment was put 
into place to ensure that no matter how the information is 
transmitted in this digital age, if the information qualifies 
as a federal record, it must be preserved as a federal record.
    Further, the EPA's records management policy approved in 
2009 seems to contradict Ms. Purchia's statement by noting that 
each office within the EPA is required to establish and 
maintain a records management program with the following 
minimum requirements: Create, receive, and maintain official 
records providing adequate and proper documentation and 
evidence of EPA's activities; manage records, in any format, in 
accordance with applicable statutes, regulations, and EPA 
policy and guidance; and maintain electronic records.
    Considering that approximately 5,000 of EPA's personnel are 
issued mobile devices by the Agency, we must be certain that 
the policies and procedures in place are strong enough to 
protect and safeguard the text messages that qualify as federal 
record that may be purposefully or even mistakenly deleted.
    This Committee began its investigation into the 
preservation of text messages as federal records last November 
when it asked the EPA Inspector General to look into the 
matter. Since then, the Committee has continued its 
Congressional oversight of this important matter by trying to 
work with the EPA to learn more about this situation. From the 
information that the Committee has obtained thus far, it 
appears that although EPA employees are allowed to use their 
work phones for text messaging, there are virtually no text 
messages preserved as federal records. I find this extremely 
hard to believe.
    What is disappointing to me is that it has been fairly 
difficult to obtain helpful documents from the EPA in order to 
conduct our investigation since the first letter sent to the 
Administrator in January. This slow rolling and lack of a 
complete response is unfortunately not something new to the 
Committee in its interactions with the Administration. It has 
the unfortunate resemblance to the Committee's obstructed 
investigation of the role of the U.S. Chief Technology Officer 
with the development and rollout of HealthCare.gov.
    As the chairman of this Committee's Oversight Subcommittee, 
I want to ensure that we restore transparency and 
accountability across the government and this Administration, 
with today's focus being on the EPA.
    With that, I look forward to today's hearing where I hope 
to learn from our witnesses more about the policies and 
procedures that have been in place to ensure valuable federal 
records are preserved. In the end, I would like to know what is 
being done or what can be done to protect the inadvertent or 
intentional destruction of federal records to ensure the 
highest level of transparency that is owed to the American 
people.
    [The prepared statement of Mr. Loudermilk follows:]

              Prepared Statement of Oversight Subcommittee
                       Chairman Barry Loudermilk

    Good morning everyone. I want to welcome and thank all of our 
witnesses for being here today.
    As you might know, it was brought to this Committee's attention 
last fall that the Environmental Protection Agency (EPA) deleted 
thousands of text messages that it may have needed to preserve as 
federal records. At that time, EPA spokeswoman Liz Purchia was quoted 
as saying that,

    `` . . . the agency maintains that the text messages neither had to 
be preserved nor were subject to disclosure. Text messages can legally 
be deleted.''

    It is stated in the Federal Records Act that, ``The head of each 
Federal agency shall make and preserve records containing adequate and 
proper documentation of the organization, functions, policies, 
decisions, procedures, and essential transactions of the agency and 
designed to furnish the information necessary to protect the legal and 
financial rights of the Government and of persons directly affected by 
the agency's activities.''
    The Federal Records Act was updated this past September to further 
clarify that it is the information that is important to preserve and 
not the medium in which that information was created or received. This 
amendment was put in place to ensure that no matter how the information 
is transmitted in this digital age, if the information qualifies as a 
federal record, it must be preserved as a federal record.
    Further, the EPA's records management policy approved in 2009 seems 
to contradict Ms. Purchia's statement by noting that,

    ``Each office within EPA is required to establish and maintain a 
records management program with the following minimum requirements: 
Create, receive, and maintain official records providing adequate and 
proper documentation and evidence of EPA's activities; manage records, 
in any format, in accordance with applicable statutes, regulations, and 
EPA policy and guidance; and maintain electronic records.''

    Considering that ``approximately 5,000 of EPA's personnel are 
issued a mobile device by the Agency,'' we must be certain that the 
policies and procedures in place are strong enough to protect and 
safeguard text messages that qualify as federal record that may be 
purposefully or even mistakenly deleted.
    This Committee began its investigation into the preservation of 
text messages as federal records last November when it asked the EPA 
Inspector General to look into the matter. Since then, the Committee 
has continued its Congressional oversight of this important matter by 
trying to work with the EPA to learn more about this situation. From 
the information that the Committee has obtained thus far, it appears 
that although EPA employees are allowed to use their work phones for 
text messaging, there are virtually no text messages preserved as 
federal records. I find this extremely hard to believe.
    What is disappointing to me is that it has been fairly difficult to 
obtain helpful documents from the EPA in order to conduct our 
investigation since the first letter sent to the Administrator in 
January. This slowrolling and lack of a complete response is 
unfortunately not something new to the Committee in its interactions 
with this Administration. It has the unfortunate resemblance to the 
Committee's obstructed investigation of the role of the U.S. Chief 
Technology Officer with the development and roll-out of HealthCare.gov.
    As the Chairman of this Committee's Oversight Subcommittee, I want 
to ensure that we restore transparency and accountability across the 
government and this Administration, with today's focus being on the 
EPA.
    With that, I look forward to today's hearing where I hope to learn 
from our witnesses more about the policies and procedures that have 
been in place to ensure valuable federal records are preserved. In the 
end, I would like to know what is being done or what can be done to 
protect the inadvertent or intentional destruction of federal records 
to ensure the highest level of transparency that is owed to the 
American people.

    Chairman Loudermilk. I now recognize the Ranking Member of 
the Subcommittee on Oversight, the gentleman from Virginia, Mr. 
Beyer, for an opening statement.
    Mr. Beyer. Thank you, Chairman Loudermilk, and thank you 
for coming and testifying with us today.
    I want to make three points this morning in my opening 
remarks. First: I think we can all agree that federal 
recordkeeping is important and requires some modifications as 
our modes of communication change. Second: Many people 
misunderstand or intentionally mischaracterize what constitutes 
federal recordkeeping. And third: We should stick to the facts 
in the Science Committee, of all places, and we should not let 
intentional mischaracterizations color our process or our 
handling of an allegation.
    So first, we can all be in consensus that it is important 
to properly preserve government records. We can also agree that 
we should continue to improve the system that allows federal 
employees to identify and maintain records in accordance with 
the Federal Records Act. If there is a problem, we must correct 
it. If an agency or individual is not properly preserving 
records, we must acknowledge that and take proper next steps. 
If federal records have been intentionally deleted or 
destroyed, then individuals should be held accountable. But 
just because a record is deleted does not mean that a federal 
record has been destroyed.
    My second point is that many people, including perhaps 
Members of Congress, misunderstand what is and is not a federal 
record. This understanding extends to non-transitory records 
that must be collected and preserved, and what constitutes a 
transitory record that does not require preservation. Living in 
the digital age, we all know that we generate far more written 
communications in more forms than ever before. Identifying, 
collecting and storing all the data generated in a federal 
agency is neither necessary, realistic nor economical. On 
average, only about ten percent of a federal agency's data 
constitutes a federal record. In addition, despite some 
misperceptions, personal emails may be used for official 
government business provided the record is preserved by cc'ing 
it to the agency email address.
    Now to the third point: We should not engage in 
mischaracterizations. And if others do, we should not encourage 
or celebrate these mischaracterizations. In September 2013 the 
EPA IG's office released a report titled: ``Congressionally 
Requested Inquiry Into the EPA's Use of Private and Alias Email 
Accounts.'' This was requested by Chairman Smith and others, 
but some Members of Congress publicly mischaracterized the 
findings of the IG, making false accusations as a result. In 
one instance, some claimed that a specific EPA Regional 
Administrator lied to OIG investigators and used his private 
email to conduct agency business. What was not realized, and 
was not acknowledged, was that this practice is permitted under 
the Federal Records Act. In fact, in the OIG's lengthy public 
response to set the record straight, they noted that the EPA 
official had cc'd all of his work-related records from their 
private email to their government epa.gov account, and that 
rather than lying to the OIG investigators that the 
individual's ``statement to the OIG was corroborated by the 
emails obtained by the OIG.''
    These sorts of sweeping and false characterizations are 
troubling, and I point to them because I am deeply concerned by 
the written testimony I read earlier by Dr. David Schnare for 
this hearing today. His testimony alleges that senior EPA 
officials, including Administrator Gina McCarthy, have 
``blatantly violated the Federal Records Act, intentionally not 
followed the law and kept Agency records secret in order to 
conceal contacts with individuals or groups outside the 
Agency.'' Dr. Schnare has made unsupported and sweeping 
allegations against the EPA in the past also. I am attaching to 
my statement four documents related to a 2012 lawsuit filed by 
Dr. Schnare against the EPA accusing the Agency, and its then-
Administrator Lisa Jackson, of participating in human 
experiments he likened to horrific experiments conducted by 
Nazi doctors on prisoners in concentration camps during World 
War II and claimed the EPA was using ``secret gas chambers'' to 
conduct these studies on airborne particulate matter. The case 
was dismissed after Dr. Schnare's lawsuit resulted in multiple 
newspaper headlines, such as these: ``EPA's secret gas chamber 
experiments: A deceitful failure,'' and ``EPA charged with 
lethal experiments on hundreds of unsuspecting subjects.'' If 
there are legitimate issues with EPA recordkeeping or the 
processing of FOIA requests, then let us look at these issues 
and let us address them in a serious way, and I am happy to 
work with my colleagues on both sides of the aisle in a 
productive way to do so. We have the reasoned and careful 
testimony of the EPA Inspector General's office and the 
National Archives, and there is little there to turn into 
sensational headlines, and I commend these testimonies to my 
colleagues' attention as being educational and fact-based.
    Mr. Chair, I yield back.
    [The prepared statement of Mr. Beyer follows:]

            Prepared Statement of Subcommittee on Oversight
              Minority Ranking Member Donald S. Beyer, Jr.

    Good morning!
    I want to make three points this morning in my opening remarks.
    First: I think we can all agree that federal recordkeeping is 
important AND requires some modifications as our modes of communication 
change.
    Second: Many people misunderstand or intentionally mischaracterize 
what constitutes federal recordkeeping.
    And third: We should stick to the facts in the Science Committee of 
all places, and we should not let intentional mischaracterizations 
color our process or our handling of an allegation.
    So first: We can all be in consensus that it is important to 
properly preserve government records. We can also agree that we should 
continue to improve the system that allows federal employees to 
identify and maintain records, in accordance with the Federal Records 
Act.
    If there is a problem, we must correct it. If an agency or 
individual is not properly preserving records, we must acknowledge that 
and take proper next steps. If federal records have been intentionally 
deleted or destroyed, then individuals should be held to account. But 
just because a record is deleted does not mean that a Federal Record 
has been destroyed.
    My second point is that many people, including perhaps Members of 
Congress, misunderstand what is and is not a Federal Record. This 
understanding extends to ``non-transitory'' records that must be 
collected and preserved, and what constitutes a ``transitory'' record 
that does not require preservation. Living in the digital age we all 
know that we generate far more written communications in more forms 
than ever before. Identifying, collecting and storing ALL the data 
generated in a federal agency is neither necessary, realistic nor 
economical. On average, only about 10 percent of a federal agency's 
data constitutes a federal record. In addition, despite some 
misperceptions, personal e-mails may be used for official government 
business provided the record is preserved by cc'ing it to your agency 
email address.
    Now to the third point: We should not engage in 
mischaracterizations. And if others do, we should not encourage or 
celebrate these mischaracterizations.
    In September 2013 the EPA IG's office released a report titled: 
Congressionally Requested Inquiry Into the EPA's Use of Private and 
Alias Email Accounts. Chairman Smith and others requested that 
investigation. But some Members of Congress publicly mischaracterized 
the findings of the IG, making false accusations as a result. In one 
instance, some claimed that a specific EPA Regional Administrator lied 
to OIG investigators and used his private email to conduct agency 
business. What was not realized, or was not acknowledged, was that this 
practice is permitted under the Federal Records Act. In fact, in the 
OIG's lengthy public response to set the record straight they noted 
that the EPA official had cc'd all of their work related records from 
their private email to their government ``epa.gov'' account and that 
rather than lying to the OIG investigators that the individual's 
``statement to the OIG was corroborated by the emails obtained by the 
OIG.''
    These sorts of sweeping and false characterizations are troubling 
and I point to them because I am deeply concerned by the written 
testimony submitted by Dr. David Schnare for this hearing today. His 
testimony alleges that senior EPA officials, including Administrator 
Gina McCarthy, ``have blatantly violated the Federal Records Act,'' 
intentionally not followed the law and kept Agency records ``secret'' 
in order to conceal contacts with individuals or groups outside the 
Agency. Dr. Schnare has made unsupported and sweeping allegations 
against the EPA in the past too. I am attaching to my statement four 
documents related to a 2012 lawsuit filed by Dr. Schnare against the 
EPA accusing the Agency, and its then-Administrator Lisa Jackson, of 
participating in human experiments he likened to horrific experiments 
conducted by Nazi doctors on prisoners in concentration camps during 
World War II and claimed the EPA was using ``secret gas chambers'' to 
conduct these studies on airborne particulate matter. The case was 
dismissed after Dr. Schnare's lawsuit resulted in multiple newspaper 
headlines, such as these: ``EPA's secret gas chamber experiments: A 
deceitful failure,'' and ``EPA Charged With Lethal Experiments on 
Hundreds of Unsuspecting Subjects.''
    If there are indeed legitimate issues with EPA record keeping or 
the processing of FOIA requests, then let us look into those issues and 
address them. I am happy to work with my colleagues in a productive way 
to do so. However, I do not believe it is productive to allow someone 
who shows such disregard for the facts to testify. It does not lend to 
the credibility of this hearing or this In contrast, I look forward to 
the reasoned and careful testimony of the EPA Inspector General's 
office and the National Archives. There is little there to turn into 
sensational headlines, but I commend those testimonies to my 
colleagues' attention as being educational and fact-based.
    I yield back.

    Chairman Loudermilk. Thank you, Mr. Beyer, and I appreciate 
that, and it is the intention of this Subcommittee to look into 
this matter, and cooperation by the Agency is one of the things 
that would be very helpful, and that is what we are seeking to 
do.
    At this point I now recognize the chairman of the 
Subcommittee on Environment, the gentleman from Oklahoma, Mr. 
Bridenstine, for an opening statement.
    Mr. Bridenstine. Thank you, Chairman Loudermilk, and thank 
you for your leadership on this issue. I would also like to 
thank Chairman Lamar Smith for his leadership on this very 
important issue. Welcome to all of our witnesses, and thank you 
for being with us today.
    Time and time again, we have seen the Environmental 
Protection Agency use the regulatory process to increase the 
federal government's authority and bypass Congressional intent 
at the expense of states' rights. The EPA's regulations have an 
enormous cost, stifling businesses, destroying jobs, and 
increasing the cost of living for Americans, especially those 
in my district. The EPA seems to believe it should be able to 
operate without oversight.
    Just last week, this Committee helped usher through the 
House two bills that would simply require greater transparency 
and more balanced and public input into EPA's rulemaking 
processes. Unfortunately, the President has threatened to veto 
both bills.
    Today's hearing topic covers the same unfortunate theme. 
Federal archiving laws exist, as the Federal Records Act 
states, ``to protect the legal and financial rights of persons 
directly affected by the agency's activities.'' And I can tell 
you in my home State of Oklahoma, in my constituency, there are 
many people directly affected by the Agency's activities. 
However, the EPA would have us believe that despite the fact 
that thousands of text messages are being sent and received, 
virtually none is important enough to qualify as a federal 
record and require preservation, and therefore can be deleted 
by the individuals sending and receiving them.
    If we, as representatives of the American people, people 
who are directly affected by EPA's activities, are not provided 
with the information necessary to verify that the agency's 
practices are fulfilling both the letter and the spirit of the 
law, how can we know that the agency isn't getting rid of the 
very records it is required to preserve? EPA is once again 
refusing to comply with the Committee's requests, necessitating 
the chairman's issuance of a subpoena yesterday to compel 
production. EPA's refusal to turn over records and documents is 
yet another example of the lack of accountability and 
transparency that has become a hallmark of this agency in its 
dealings with Congress.
    We here in the House are not alone. Members of the public 
who request information can expect the same. The Center for 
Effective Government recently released a report grading federal 
agencies on how responsive they are to FOIA requests; the EPA 
received a D. Again, I believe that we here in Congress have a 
responsibility, on behalf of the people we represent, to 
oversee the actions of agencies like the EPA. This is important 
when those actions have such significant impacts on all of us, 
and particularly the impacts in my State of Oklahoma. The EPA 
has a responsibility and an obligation to provide the 
information we have requested.
    I thank the witnesses for being with us today and I look 
forward to your testimony. I yield back.
    [The prepared statement of Mr. Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Time and time again, we have seen the Environmental Protection 
Agency, use the regulatory process to increase the federal government's 
authority and bypass Congressional intent, at the expense of states' 
rights. The EPA's regulations have an enormous cost, stifling 
businesses, destroying jobs, and increasing the cost of living for 
Americans.
    The EPA seems to believe it should be able to operate without 
oversight. Just last week, this Committee helped usher through the 
House two bills that would simply require greater transparency and more 
balanced and public input into EPA's rulemaking processes. 
Unfortunately, the President has threatened to veto both bills.
    Today's hearing topic covers the same unfortunate theme. Federal 
archiving laws exist, as the Federal Records Act states, ``to protect 
the legal and financial rights . of persons directly affected by the 
agency's activities.'' However, the EPA would have us believe that 
despite the fact that thousands of text messages are being sent and 
received, virtually none is important enough to qualify as a federal 
record and require preservation, and therefore can be deleted by the 
individuals sending and receiving them.
    If we, as representatives of the American people, people who are 
directly affected by EPA's activities, are not provided with the 
information necessary to verify that the agency's practices are 
fulfilling both the letter and the spirit of the law, how can we know 
that the agency isn't getting rid of the very records it is required to 
preserve?
    EPA is once again refusing to comply with the Committee's requests, 
necessitating the Chairman's issuance of a subpoena yesterday to compel 
production.
    EPA's refusal to turn over records and documents is yet another 
example of the lack of accountability and transparency that has become 
a hallmark of this agency in its dealings with Congress. We here in the 
House are not alone; members of the public who request information can 
expect the same. The Center for Effective Government recently released 
a report grading federal agencies on how responsive they are to FOIA 
requests, and the EPA received a ``D.''
    Again, I believe that we here in Congress have a responsibility, on 
behalf of the people we represent, to oversee the actions of agencies 
like the EPA. This is important when those actions have such 
significant impacts on all of us, and particularly on my home state of 
Oklahoma. The EPA has a responsibility and an obligation to provide the 
information we have requested. I thank the witnesses for being with us 
today and look forward to their testimony.

    Chairman Loudermilk. Thank you, Mr. Bridenstine.
    I now recognize the Ranking Member of the Subcommittee on 
Environment, the gentlewoman from Oregon, Ms. Bonamici, for her 
opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    As someone who strongly believes in transparent government, 
I would certainly take issue with any government agency 
unlawfully destroying records. I do want to point out, however, 
that the title of today's hearing, ``Destruction of Records at 
EPA--When Records Must Be Kept,'' makes it appear that we have 
reached a verdict before we have examined the evidence. Given 
that the EPA Inspector General is beginning an investigation 
into this issue at the request of Chairman Smith, it would have 
been more prudent to wait until the investigation had came back 
with to report before holding this hearing.
    And just yesterday, the chairman issued a subpoena to 
Administrator McCarthy requiring that the Agency turn over 
billing records and text messages, without redaction, for the 
past six years. The EPA has been responsive to numerous 
Committee requests for information on this topic, so the 
issuance of this subpoena seems premature and hard to justify.
    Nevertheless, I am pleased that both the EPA's Assistant 
Inspector General and the Chief Records Officer of the National 
Archives and Records Administration are here today to provide 
us with some background on the preservation of federal records. 
I am also interested in reviewing the actions taken by EPA in 
response to the Inspector General's 2013 report on the Agency's 
email practices. It is my understanding that the EPA 
steadfastly maintains that the Agency did not circumvent 
federal record management responsibilities, a claim that was 
validated by the 2013 report, and reiterated in a letter to our 
Senate colleagues in 2014. I am attaching both the report and 
the letter to my statement.
    In this modern age of rapid, often electronic 
communication, important questions are rightly raised about the 
nature of federal records. Is a note passed between colleagues 
at a meeting a federal record? Does it depend on what it says? 
What about a text message from an assistant to a supervisor 
about ordering the donuts for a breakfast meeting?
    The process of conducting business within the government is 
complex and nuanced, and it stands to reason that the law 
governing the retention and preservation of the records of such 
business is equally nuanced. Both the Federal Records Act and 
the National Archives and Records Administration Act provide 
guidance on how such items should be preserved and when they 
can properly be destroyed.
    Now, having had an opportunity to review the testimony, I 
am somewhat puzzled about part of the hearing today. It is easy 
to understand why both the EPA IG and NARA have been asked to 
testify, but I do hope we get clarification about what Dr. 
Schnare's role is here today. Is he here as General Counsel of 
E&E Legal, the group that apparently sent the FOIA request to 
the EPA asking for text messages? I see that Dr. Schnare says 
he has years of experience responding to FOIA requests, but is 
he here claiming to be an expert on record retention?
    Also, Dr. Schnare's testimony in places is quite 
accusatory, and I do hope that any opinions are clearly 
conveyed as just that: opinions. For example, in the place in 
the testimony when Dr. Schnare states, ostensibly as fact, that 
EPA senior management is ``pleased'' when they allegedly 
destroy public records. So I acknowledge Dr. Schnare is a 
lawyer and a Ph.D., but he is neither judge nor jury. So I will 
be listening carefully, as I hope all Members will do, to 
determine what specific evidence is provided to support such 
serious accusations.
    Now, make no mistake: willfully and unlawfully destroying 
or deleting, or attempting to destroy or delete federal records 
carry severe fines and sometimes prison terms, and I am wholly 
supportive of efforts to ensure the proper preservation of 
government records, and equally supportive of holding 
accountable those who have intentionally and unlawfully 
destroyed federal records. But let us not be quick to condemn 
until we have fully understood if the obligations and actions 
were consistent with the law.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you Mr. Chair. As someone who strongly believes transparent 
government, I would certainly take issue with any government agency 
unlawfully destroying records. However, the title of today's hearing, 
``Destruction of Records at EPA - When Records Must Be Kept,'' makes it 
appear that we have reached a verdict before we have examined any 
evidence.
    Given that the EPA Inspector General is just beginning an 
investigation into this issue at the request of Chairman Smith, it 
would have been more prudent to wait until the investigation had 
something to report before holding this hearing.
    Just yesterday, the Chairman issued a subpoena to Administrator 
McCarthy requiring that the Agency turn over billing records and text 
messages, without redaction, for the past six years. EPA has been 
responsive to the numerous Committee requests for information on this 
topic, so the issuance of this subpoena seems quite premature and hard 
to justify. Nevertheless, I am pleased that both the EPA's Assistant 
Inspector General and the Chief Records Officer of the National 
Archives and Records Administration are here today to provide us with 
some background on the preservation of federal records. I am also 
interested in reviewing the actions taken by EPA in response to the 
Inspector General's 2013 report on the Agency's emailpractices.
    It is my understanding that EPA steadfastly maintains that the 
Agency did not use private or secondary emails to circumvent federal 
record management responsibilities, a claim that was validated by the 
2013 report, and reiterated in a letter to our Senate colleagues in 
2014. I am attaching both the report and the letter to my statement.
    In this modern age of rapid, often electronic communication, 
important questions are rightly raised about the nature of federal 
records. Is a note passed between colleagues at a meeting a federal 
record? What about a text message from an assistant to a supervisor 
about ordering donuts for a breakfast meeting? The process of 
conducting business within the government is complex and nuanced, and 
it stands to reason that the law governing the retention and 
preservation of the records of such business is equally nuanced. Both 
the Federal Records Act and NARA provide guidance on how such items 
should be preserved and when they can properly be destroyed.
    Having had an opportunity to review the testimony, I am somewhat 
puzzled about why we are hearing from one of the witnesses called to 
this hearing. It is easy to understand why both the EPA IG and NARA 
have been asked to testify. But I'm wondering what Dr. Schnare's role 
is today. Is he here as General Counsel of E&E Legal, the group that 
apparently sent the FOIA request to the EPA asking for text messages? I 
see that Dr. Schnare says he has years of experience responding to FOIA 
requests, but is he here claiming to be an expert on record retention? 
His testimony is quite accusatory; I do hope that any opinions are 
clearly conveyed as just that--opinions--like the place in the 
testimony when Dr. Schnare state, ostensibly as fact, that EPA senior 
management is ``pleased'' when they allegedly destroy public records.
    And I am already concerned based on the written testimony that some 
of these accusations could be considered defamatory. Dr. Schnare is a 
Phd and a lawyer, but he is neither judge nor jury.
    I will be listening carefully, as I hope all members will do, to 
determine what specific evidence Dr Schnare has to support such serious 
accusations. Make no mistake: willfully and unlawfully destroying or 
deleting, or attempting to destroy or delete, federal records carry 
severe fines and prison terms. I am wholly supportive of efforts to 
ensure the proper preservation of government records, and equally 
supportive of holding accountable those who have intentionally and 
unlawfully destroyed federal records. But let us not be quick to 
condemn until we have fully understood if the obligations and actions 
were consistent with the law.
    I yield back.

    Chairman Loudermilk. Thank you, Ms. Bonamici, and let me 
remind the Members of this hearing that the evidence is that 
text messages were in fact deleted, which was confirmed by the 
EPA.
    At this point I recognize the chairman of the full 
Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman, and let me add my 
thanks to yours for our expert testimony today. We really do 
appreciate all three of you all being here, and you have much 
to contribute, and we will get to questions and answers in a 
few minutes.
    Mr. Chairman, this Committee often addresses technical and 
scientific integrity standards. However, in the past few years, 
the Committee has had to repeatedly examine the standard of 
transparency and accountability. Unfortunately, certain 
agencies and federal officials have failed to meet it.
    We have seen a disregard for agency transparency several 
times in recent years across the federal government such as 
with Lois Lerner's IRS targeting controversy and Hillary 
Clinton's secret server issue.
    We have also seen this within the agencies under this 
Committee's jurisdiction. There have been transparency issues 
at the EPA going back as far as the Clinton Administration, and 
just this past year, a federal judge held the EPA in contempt 
for disregarding a court order not to destroy records. In that 
case, former EPA Administrator Carol Browner asked an employee 
to delete all her as well as other senior officials' computer 
files as a new Administration was about to take over. Her 
excuse was that she wanted to have some games removed from her 
computer. Yes, she was undoubtedly playing games.
    Not long after the contempt finding, reports surfaced that 
EPA Administrator Lisa Jackson created a secret email account 
under the pseudonym Richard Windsor in an apparent attempt to 
conceal emails. It has been reported that this led to her 
resignation.
    At the EPA, lack of transparency is even more pronounced 
when coupled with the EPA's use of secret science to justify 
costly regulations. What is clear is that this Administration 
has failed to meet its promise of being the most transparent in 
American history. We would settle for just plain transparent.
    Recently, a majority--listen to this--a majority of the 
Inspectors General signed a letter to the Administration 
criticizing its lack of cooperation in providing public 
documents, and many in the media say that this Administration 
is the least forthcoming they can remember.
    Today the Committee once again examines the EPA's practices 
for the preservation of federal records and how they may 
reflect how this Agency makes its decisions on scientific 
issues. Last year, the Committee learned that since 2009, the 
current EPA Administrator Gina McCarthy has deleted thousands 
of text messages from her official mobile device. The EPA 
claims that these text messages are all of a personal nature 
and therefore not subject to the Federal Records Act. But it is 
simply not believable that of the almost 6,000 text messages 
between 2009 and 2013 and many since, that only one was related 
to EPA business. The single text message produced by EPA was 
received at the start of this year. This was months after the 
EPA Office of Inspector General began its investigation and 
within days of receiving a letter of inquiry from this 
Committee. While Committee staff has repeatedly asked for 
certain unredacted documents that the EPA has already collected 
under a FOIA request, the EPA has failed to turn over these 
documents. This pattern of withholding, concealing, and 
destroying records must stop.
    The American people deserve an open and transparent 
government. This firm belief in transparency and the 
disappointing response to this Committee's request from the EPA 
compelled the Committee to authorize a subpoena yesterday. This 
stonewalling and slow-rolling of documents in response to 
Congressional requests must end. Americans deserve to have the 
facts.
    I hope, Mr. Chairman, that today's witnesses will provide 
additional information crucial to this investigation, and I 
will yield back the balance of my time.
    [The prepared statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Thank you, Chairman Loudermilk, for holding this hearing. I also 
thank the witnesses for being here today to provide their valuable 
testimony.
    This Committee often addresses technical and scientific integrity 
standards. However, in the past few years, the Committee has had to 
repeatedly examine the standard of transparency and accountability. 
Unfortunately, certain agencies and federal officials have failed to 
meet it.
    We have seen a disregard for agency transparency several times in 
recent years across the federal government--such as with Lois Lerner's 
11IRS targeting controversy'' and Hillary Clinton's ``secret server'' 
issue.
    We have also seen this within the agencies under this Committee's 
jurisdiction. There have been transparency issues at the EPA going back 
as far as the Clinton Administration. And just this past year, a 
federal judge held the EPA in contempt for disregarding a court order 
not to destroy records. In that case, former EPA Administrator Carol 
Browner asked an employee to delete all her as well as other senior 
officials' computer files as a new Administration was about to take 
over. Her excuse was that she wanted to have some ``games'' removed 
from her computer. Yes she was undoubtedly playing games.
    Not long after the contempt finding, reports surfaced that EPA 
Administrator Lisa Jackson created a secret email account under the 
pseudonym ``Richard Windsor'' in an apparent attempt to conceal emails. 
It has been reported that this unfortunate incident lead to her 
resignation.
    At the EPA, lack of transparency is even more pronounced when 
coupled with the EPA's use of ``secret science'' to justify costly 
regulations. What is clear is that this Administration has failed to 
meet its promise of being the most transparent in American history. We 
would settle for just plain transparent.
    Recently, a majority of Inspectors General signed a letter to the 
Administration criticizing its lack of cooperation in providing public 
documents. And many in the media say that this Administration is the 
least forthcoming they can remember.
    Today the Committee once again examines the EPA's practices for the 
preservation of federal records and how they may reflect how this 
Agency makes its decisions on scientific issues.
    Last year, the Committee learned that since 2009, the current EPA 
Administrator Gina McCarthy has deleted thousands of text messages from 
her official mobile device. The EPA claims that these text messages are 
all of a personal nature and therefore not subject to the Federal 
Records Act. But it is not believable that of the almost 6,000 text 
messages between 2009 and 2013 and many since, that only one was 
related to EPA business. The single text message produced by EPA was 
received at the start of this year. This was months after the EPA 
Office of Inspector General began its investigation and within days of 
receiving a letter of inquiry from this Committee.
    While Committee staff has repeatedly asked for certain unredacted 
documents that the EPA has already collected under a FOIA request, the 
EPA has failed to turn over these documents. This pattern of 
withholding, concealing, and destroying records must stop. The American 
people deserve an open andtransparent government.
    This firm belief in transparency and the disappointing response to 
this Committee's request from the EPA compelled the Committee to 
authorize a subpoena yesterday. This stonewalling and slow-rolling of 
documents in response to Congressional requests must end. Americans 
deserve to have the facts.
    I hope that today's witnesses will provide additional information 
crucial to this investigation.

    Chairman Loudermilk. Thank you, Mr. Chairman.
    I now recognize the Ranking Member of the full Committee, 
Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I learned yesterday that the chairman of the full Committee 
issued a subpoena to the Environmental Protection Agency for 
documents related to allegations of text and email messages 
being deleted at EPA. When the Committee adopted the new 
subpoena rules at the beginning of this Congress, he assured 
the Minority that when he issued a subpoena, it would not come 
as a surprise. Yesterday we saw the first subpoena go out, and 
let me assure you that we were surprised.
    As we understand it, the chairman sent two letters asking 
for documents, one on January 27, 2015, and one on March 6, 
2015. EPA was in the process of producing records responsive to 
these two requests, which had different scopes, over the last 
two weeks. Just Friday, EPA sent an email to the Majority that 
read, in part, ``I do want to emphasize our strong desire to 
continue to work with the Committee in a cooperative manner.'' 
Then five days later, on March 25th, the chairman issued his 
subpoena.
    It is a longstanding tradition in relations between the 
Legislative and Executive branches that there is an expectation 
that the two sides will accommodate the legitimate needs of 
each other in struggles over documents. And the fact of the 
matter is that EPA was complying with the Committee's request, 
consistent with their responsibility to try to protect the 
Administrator's privacy regarding personal contact and billing 
information. This subpoena was thus entirely unnecessary from 
an oversight perspective. However, from a press-release 
perspective, I imagine that issuing the subpoena before this 
hearing may be considered a score, to be a clever move. But 
issuing a subpoena for press impact undermines the seriousness 
of the chairman's oversight work. That is not good for the 
Committee, the Congress, or the country.
    I am attaching to my statement a timeline of contacts on 
this matter so that people can see that EPA was in truth 
working to meet our needs, and I would ask unanimous consent to 
allow this to be attached to my comments.
    Chairman Loudermilk. I am sorry. Will the lady----
    Ms. Johnson. Today's hearing, sadly, is about political 
theater and inflammatory claims that are not tied to any real 
facts. There are a lot of allegations being made about text 
messages and EPA, but these are not a lot of facts and it is 
just not facts that we can rely on to know what really 
happened.
    To the degree that we know anything, it is that EPA is 
probably doing about as well as any agency in trying to keep up 
with the changing landscape of communications technologies and 
the obligations to retain records. We also know that the most 
inflated claims regarding former EPA Administrator Lisa 
Jackson's use of email were found to be largely unsubstantiated 
or just plain wrong.
    In spite of that, we will have a witness appearing before 
us today who has been at the center of a steady attack on EPA 
regarding allegations that its employees lie, that they 
purposefully delete and withhold records, and that the top 
political officials take satisfaction in skirting the law. In 
short, there will be a lot of heated rhetoric at today's 
hearing, but not much evidence.
    I wish this Committee would not be rushing to judgment in 
an attempt to score political points, and instead would let the 
IG do its job and finish its probe into these allegations. Then 
we will know whether or not we have a mountain or a molehill 
and we can act accordingly.
    I thank you, Mr. Chairman, and I hope that our witnesses 
realize they are under oath today. Thank you. I yield back.
    [The prepared statement of Ms. Johnson follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Mr. Chairman, I learned yesterday that the Chairman of the full 
committee issued a subpoena to the Environmental Protection Agency for 
documents related to allegations of text and email messages being 
deleted at EPA.
    When the Committee adopted the new subpoena rulesat the beginning 
of this Congress, he assured the Minority that when he issued a 
subpoena it would not come as a surprise. Yesterday we saw the first 
subpoena go out, and let me assure the Chairman that we weresurprised.
    As we understand it, the Chairman sent two letters asking for 
documents, one on January 27, 2015 and one on March 6, 2015. EPA was in 
the process of producing records responsive to these two requests, 
which had different scopes, over the last two weeks. Just Friday, EPA 
sent an email to the Majority that read, in part ``I do want to 
emphasize our strong desire to continue to work with the Committee in a 
cooperative manner.'' Then five days later, on March 25th, the Chairman 
issued his subpoena.
    It is a long-standing tradition in relations between the 
Legislative and Executive branches, that there is an expectation that 
the two sides will accommodate the legitimate needs of each other in 
struggles over documents. And the fact of the matter is that EPA was 
complying with the Committee's request, consistent with their 
responsibility to try to protect the Administrator's privacy regarding 
personal contact and billing information.
    This subpoena was thus entirely unnecessary from an oversight 
perspective. However, from a press release perspective, I imagine that 
issuing the subpoena before this hearing may be considered by some to 
be a clever move. But issuing a subpoena for press impact undermines 
the seriousness of the Chairman's oversight work. That is not good for 
the Committee, the Congress, or the country.
    I am attaching to my statement a timeline of contacts on this 
matter so that people can see that EPA was in truth working to meet our 
needs. Today's hearing, sadly, is about political theater and 
inflammatory claims that are not tied to any real facts. There are a 
lot of allegations being made about text messages and EPA, but there 
are not a lot of facts to rely on to know what really happened. To the 
degree we know anything, it is that EPA is probably doing about as well 
as any agency in trying to keep up with the changing landscape of 
communications technologies and its obligations to retain records. We 
also know that the most inflated claims regarding former EPA 
Administrator Lisa Jackson's use of email were found to be largely 
unsubstantiated or just plain wrong.
    In spite of that, we will have a witness appearing before us today 
who has been at the center of a steady attack on EPA regarding 
allegations that its employees lie, that they purposefully delete and 
withhold records, and that the top political officials take 
satisfaction in skirting the law. In short, there will be a lot of 
heated rhetoric at today's hearing, but not much evidence. I wish this 
Committee would not be rushing to judgment in an attempt to score 
political points, and instead would let the IG do its job and finish 
its probe into these allegations. Then we will know whether we have a 
mountain or a molehill and we can act accordingly.
    Thank you, and I yield back.

    Chairman Loudermilk. Thank you, Ms. Johnson.
    The letter sent in March put both the EPA and the Minority 
on notice that the Committee would compel its production if the 
documents were not turned over in an unredacted form.
    Also, if there are Members who wish to submit additional 
opening statements, their statements will be added to the 
record at this point.
    At this point I ask unanimous consent to enter the 
documents into the record. Without objection, the documents are 
entered.
    Chairman Loudermilk. At this time I would like to introduce 
our witnesses.
    Our first witness is Mr. Paul M. Wester. Mr. Wester is the 
Chief Records Officer for the National Archives and Records 
Administration, or NARA.
    The next witness on today's panel is Mr. Kevin Christensen. 
Mr. Christensen is the Assistant Inspector General for Audit 
for the Office of the Inspector General at the Environmental 
Protection Agency. Welcome.
    Today's final witness is Dr. David Schnare. Dr. Schnare is 
a former Senior Attorney at the EPA's Office of Enforcement and 
Compliance Assurance. He is also the Director of the Free 
Market Environmental Law Clinic, the Director of the Center for 
Environmental Stewardship at the Thomas Jefferson Institute for 
Public Policy, and General Counsel at the Energy and 
Environment Legal Institute.
    Welcome to all of our witnesses here today.
    Pursuant to Committee rules, all witnesses will be sworn in 
before they testify. If you will please rise and raise your 
right hand? Do you solemnly swear or affirm that the testimony 
that you will give here today will be the truth, the whole 
truth and nothing but the truth, so help you God? Let the 
record reflect that the witnesses answered in the affirmative.
    Before we begin, I will request that our witnesses please 
limit your testimony to five minutes. It seems there will be 
another series of votes, which could happen at any time, and I 
want to make sure that we have time for discussion. Your entire 
written statement will be made part of the record. And if we do 
have votes coming up, we will suspend for those votes and then 
come back here for the remainder of the testimony.
    I now recognize Mr. Wester for five minutes to present his 
testimony.

             TESTIMONY OF MR. PAUL M. WESTER, JR.,

                     CHIEF RECORDS OFFICER,

          NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Wester. Chairman Loudermilk, Chairman Bridenstine, 
Ranking Member Beyer, and Ranking Member Bonamici, and other 
distinguished Members of the Committee, I am Paul Wester, the 
Chief Records Officer for the U.S. Government at the National 
Archives and Records Administration. Thank you for holding this 
hearing on the importance of federal recordkeeping and the 
challenges agencies face managing government records.
    In my prepared testimony, I provided a detailed summary of 
a number of recent activities that the National Archives, the 
Office of Management and Budget, and other federal agencies 
across the government have undertaken to improve the management 
of government records. I also make special note of the 
enactment by the 113th Congress of the Presidential and Federal 
Records Act Amendments of 2014 under the leadership of Chairman 
Issa and Ranking Member Cummings of the House Oversight and 
Government Reform Committee. I look forward to answering 
questions this Committee may have on those activities.
    The Committee asked me to address three specific questions 
today. First, what does the Federal Records Act require of 
federal agencies? The Federal Records Act requirements for 
federal agencies are found at 44 U.S.C. Chapter 31, which is 
titled ``Records management by federal agencies.'' At a high 
level, agency heads are responsible for ensuring several things 
including the adequate and proper documentation of agency 
activities, a program of management to ensure effective 
controls over the creation, maintenance, and use of records in 
the conduct of their current business, and compliance with NARA 
guidance and regulations and compliance with other sections of 
the Federal Records Act that give NARA authority to promulgate 
guidance, regulations, and records disposition authority to 
federal agencies.
    The second question the Committee asked me to address today 
is what are transitory records and how is the disposition of 
them different than other federal records. Under the General 
Record Schedule 23, records common to most agencies within--
records common to most offices within agencies, transitory 
records are defined at item 7 as records of short-term 
interest, 180 days or less, including records in electronic 
form like email messages or text messages, which have minimal 
or no documentary or evidential value. Included are such 
records as routine requests for information or publications and 
copies of replies which require no administrative action, no 
policy decision and no special compilation or research for the 
reply or originating office copies of letters of transmittal 
that do not add any information to that contained in the 
transmitted material and receiving office copy if filed 
separately from transmitted material and records documenting 
routine activities containing no substantive information such 
as routine notifications of meetings, scheduling of work-
related trips and visits, and other scheduling-related 
activities. The disposition of these records is destroy 
immediately or when no longer needed for reference, or 
according to a predetermined time period or business rule like 
implementing an auto-delete feature on an email system. The 
disposition of transitory records is not different from the 
disposition of other federal records. Federal employees are 
encouraged to dispose of transitory records consistent with the 
General Records Schedule 23 just as they are encouraged to 
carry out disposition of other federal records according to 
agency-specific and NARA-approved records disposition 
schedules.
    The third issue that the Committee asked me to address is 
EPA's compliance with the Federal Records Act itself. As a 
general matter, NARA cannot speak authoritatively to agency 
compliance with the Federal Records Act. Departments and 
agencies are responsible for managing their programs consistent 
with the Act. I can say that the EPA has participated in NARA's 
annual Records Management Self-Assessment, also known as the 
RMSA, since it was established in 2009. The RMSA is a self-
reported evaluation of compliance with NARA's records 
management regulations. NARA does some validation of survey 
responses but the validation is limited to the verification 
that records management program policies are in place. Overall, 
the EPA has scored well on the self-assessment since we have 
administered it since 2009.
    Like other agencies, EPA has self-reported records 
management issues to NARA as required in the Federal Records 
Act. My staff and I work to resolve these issues with the EPA 
records management staff. EPA has been responsive and 
cooperative with NARA in these dialogs and has provided 
supplementary information to NARA as it has been requested.
    In conclusion, the management of federal records in all 
their forms is a central, animating issue for the National 
Archives and for the government as a whole. In that regard, the 
Science Committee's interest in records management at the EPA 
and all its sister agencies is also topic of interest to the 
National Archives.
    The talented staff of the National Archives and Records 
Administration looks forward to working on records management 
with EPA now and for many years to come. The long-term success 
of the National Archives and the historical record of our 
Nation depends on our collective success.
    Thank you for the opportunity to appear today. I look 
forward to answering your questions.
    [The prepared statement of Mr. Wester follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Loudermilk. Thank you, Mr. Wester, and I now 
recognize Mr. Christensen for five minutes to present his 
testimony.

              TESTIMONY OF MR. KEVIN CHRISTENSEN,

             ASSISTANT INSPECTOR GENERAL FOR AUDIT,

                  OFFICE OF INSPECTOR GENERAL,

                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Christensen. Good morning, Chairman Loudermilk, 
Chairman Bridenstine, Ranking Member Beyer, and Ranking Member 
Bonamici, and the Members of the Subcommittees. I am Kevin 
Christensen, the EPA OIG, Office of Inspector General, the 
Assistant Inspector General for Office of Audit. Today I will 
discuss three matters: the records management policies of the 
EPA, OIG's report congressionally requested inquiry into EPA's 
use of private and alias email accounts, and EPA's compliance 
with the Federal Records Act. I will highlight some of the 
EPA's most significant records management policies and 
procedures.
    In June 2009, the records management policy was revised to 
establish responsibilities and requirements to ensure that the 
Agency is in compliance with federal laws and regulations and 
the best practices for managing records. In June 2013, the 
records management policy was again revised to provide EPA 
employees with guidance when using personal email accounts to 
conduct government business and instant messaging. Recently in 
February 2015, the records management policy was revised 
further to include guidance on the use of text message on EPA's 
information system and personal devices. The EPA has also 
published several reminders to Agency senior officials and 
employees regarding their records management responsibilities.
    In response to a request from the House Committee on 
Science, Space, and Technology, the OIG completed an audit to 
determine whether the EPA followed applicable laws and 
regulations when using private and alias email accounts to 
conduct official business. We issued our final report in 
September 2013. The audit found no indications that EPA senior 
officials had used, promoted or encouraged the use of private 
non-governmental email accounts to circumvent records 
management responsibilities or any EPA senior official 
reprimanded, counseled or took administrative actions against 
personnel for the use of private email or alias email accounts 
for conducting official government business.
    We uncovered no facts to support Agency senior officials 
had used private email intentionally to circumvent federal 
recordkeeping responsibilities. We determined that assigning 
personnel multiple email accounts is widely practiced within 
the Agency.
    However, this is not limited to EPA senior officials and 
presents risk to the EPA's records management efforts if these 
additional email accounts are not searched during FOIA requests 
or preserved as records.
    We also conducted an audit of the Clean Water Act Section 
404 permit notification reviews for surface coalmining and 
issued our report in February 2012. We found without complete 
records, it was difficult for the EPA to know the permit status 
and the resolution of EPA's comments related to the Clean Water 
Act.
    Additionally, we are currently conducting an audit 
reviewing the processes for preserving text messages. The 
objectives include whether EPA implemented policies and 
procedures to determine which text messages to preserve and 
steps to ensure that the employees are knowledgeable of this 
guidance, implemented processes to respond to Congressional and 
FOIA requests involving agency employees' text messages, used 
text messages for informational business, and deleted, 
destroyed, lost or misplaced text messages needs for records 
management, and if applicable, the rationale for destroying 
text communication records. We anticipate this audit to be 
completed in September of 2015.
    I am here today at the request of the Committee to report 
on how the EPA has conducted itself in line with relevant laws 
and rules--laws and records--rules for records management. 
Today I have outlined the records management policies within 
EPA and the result of our audit work into EPA records 
management practices along with the ongoing work into the 
Agency text messaging. We are committed to working with 
Congress and the EPA to help realize the benefits of an 
effective records management program that enables and supports 
the Agency work to fulfill its mission.
    This concludes my statement. Thank you for the opportunity 
to testify before you today. I will be pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Christensen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Loudermilk. Thank you, Mr. Christensen.
    I now recognize Dr. Schnare for five minutes to present his 
testimony.

      TESTIMONY OF DR. DAVID SCHNARE, FORMER SR. ATTORNEY,

      EPA OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE;

        DIRECTOR, FREE-MARKET ENVIRONMENTAL LAW CLINIC;

        DIRECTOR, CENTER FOR ENVIRONMENTAL STEWARDSHIP,

         THOMAS JEFFERSON INSTITUTE FOR PUBLIC POLICY;

     GENERAL COUNSEL, ENERGY & ENVIRONMENT LEGAL INSTITUTE

    Dr. Schnare. Thank you, Mr. Chairman, all the Members of 
the Committee. I appreciate your interest in this subject. My 
role here today apparently is to be a foil, and all I wish to 
do is to be a witness, and so I will fulfill that role.
    The question before the Committee today is whether it can 
have confidence that EPA is implementing the Freedom of 
Information Act and the Public Records Act, especially in the 
context of text messages. My three decades and more of 
experience at EPA including working with very high officials 
including the political-appointee level suggests, sadly, that 
you cannot.
    Let me make a few points, and I will rest on my written 
testimony. Let me first say that with regard to fake email 
addresses, there has been a change in the culture of the 
Agency. For example, Administrator Whitman had an email address 
called ``towit,'' rather clever, I thought, but when you 
received an email from that private email account, it said 
``from Administrator Whitman,'' unlike Administrator Johnson, 
who when she used ``Richard Windsor'' showed it as coming from 
Richard Windsor. This is a level of artifice that frankly is 
inappropriate and was a change from previous Administrations.
    Secondly, I have had the pleasure, if you will, if having 
to deal with a great deal of civil discovery and Freedom of 
Information request activities, and had to help senior 
officials with review of documents that they had in their 
personal possession. We managed a 7-million-page discovery 
request in a civil case. We ended up producing 2.2 million 
pages of material. The privilege log stood taller than I am 
myself. The fact is that when you get large requests of this 
kind, many hands make light work, and so the slowdown of the 
Agency in producing documents is merely a question of whether 
they are going to put the people on it and spread the work or 
not.
    Thirdly, there is a critical time when Agency officials and 
where they are and what they are doing is important to know. 
When the Agency is making decisions, for example, on a 
regulatory matter, after the record closes, ex parte 
communications are inappropriate. So if you see a text message 
between the Administrator and someone who is an advocate or 
lobbyist and it says ``I'll see you at Starbucks at 3,'' that 
may seem as though it is a benign text message that has no 
content or meaning and could be destroyed, but it is more than 
that. It is an indication that the Administrator is meeting or 
some official is meeting with someone from outside the Agency 
at a time when one must take great care in what those meetings 
are and what is said about them and how they are recorded, and 
thus it is important for the public to know when Administrators 
and other high officials are talking to people, and that 
includes the media and the press, and we have seen documents 
that say during this period of time when text messages were 
destroyed, that in fact the phone records show the records were 
made--the text messages were made to members of the media.
    And so when you look at what is going on and how text 
messages are used and what has been kept secret, you have to 
actually ask someone who has been in the belly of the beast. I 
have had the fortune of having to go through senior executives' 
materials for purposes of production, and inevitably, one finds 
messages and materials you really don't wish to make public 
because they are embarrassing, not because they shouldn't be 
released, and indeed, there are almost always files set aside 
that you are not--you are asked not to look at, and in fact, 
some of these folks have said to me when I identify some of 
these, ``Oh, I really don't want those out. Let's just ignore 
those.'' And when I asked for help from the Administrator's 
office on Freedom of Information requests to which they must 
respond and they did not, my own senior management went up and 
asked for that, and the answer we got back was ``let it go.''
    And so, Mr. Chairman, I will be happy to answer your 
questions. I thank you for the opportunity to come up here. I 
didn't seek it but I will be happy to answer your questions as 
you may choose.
    [The prepared statement of Dr. Schnare follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Loudermilk. And thank you for your testimony, and 
to all of our witnesses, we really appreciate you coming here 
to testify. The purpose of this Subcommittee hearing is not to 
put our witnesses on trial; it is to get to the bottom of why 
messages were deleted and what changes need to be made, and I 
assure you that is the purpose of this hearing.
    I now recognize myself for five minutes for questions. This 
question I will present to each one of our witnesses. The one 
text message record involving Gina McCarthy provided to this 
Committee was coincidentally sent about a week after the 
Committee inquired with the Agency about text message 
retention. What is even more interesting is that the text 
message came from Gene Karpinski, the President of the League 
of Conservation Voters, and he said, ``Karpinski here. Great 
job on the EPA comments on Keystone. I feel like the end is 
very near.''
    First, Dr. Schnare, as someone who once worked at the 
Agency, do you find that there was a culture of text messaging 
or giving out government-issued cell phone numbers to outside 
groups?
    Dr. Schnare. It was routine, and the way it worked was, 
before there were text messages--and I am said to say I 
remember when we thought fax was a pretty cool thing--the 
telephone was the way you engaged in these conversations. There 
was no record other than that you made the call, and that is 
how people dealt with these outside groups where they didn't 
really wish to have it known what they were saying and it 
didn't matter what Administration you were in, that is the 
practice.
    As text messaging came along, it became the shorthand way 
to do precisely the same thing. So what we have now is a 
culture of text messages to be very brief but to essentially 
engage in those kinds of communications that generally you 
didn't want to have public or you didn't need to have public. 
That is not the only reason people use text messages. They use 
them for a variety of purposes but that became one of the 
mechanisms used to engage in private conversations.
    Chairman Loudermilk. Thank you, sir.
    Mr. Wester, do you know if text messages like these with 
the heads of agencies or departments speaking with outside 
influential groups are commonly preserved as federal records?
    Mr. Wester. What I do know is that records that are created 
or received in the conduct of federal business, which can 
include text messages and other kinds of electronic 
communications that document those transactions can be federal 
records and often are federal records and need to be managed 
appropriately. Sometimes they can be characterized as 
transitory records, as I described in my testimony. Otherwise 
there are specific schedules that are in place within agencies 
that require different kinds of dispositions for those kinds of 
materials, but what you are describing, it sounds like it is a 
message that has been created and received in the conduct of 
federal business, which means it is a federal record that needs 
to be managed appropriately. It is a question of which 
disposition applies to it.
    Chairman Loudermilk. Thank you, sir.
    Mr. Christensen, in your role as Assistant Inspector 
General for Audit at the EPA OIG, have you found there to be a 
practice of text messaging or giving out government-issued cell 
phone numbers to outside groups? In addition, do you know if 
the text messages like these between the Administrator at the 
EPA speaking with outside influential groups are commonly 
preserved as federal records using EPA's policies and 
procedures over the years?
    Mr. Christensen. Sir, we had one audit ongoing, which I 
mentioned in my testimony, about the text messages. We are 
still in the field work or the initial research phase of that. 
We have not reached any conclusions so I couldn't provide any 
definite yes or no on that answer. We would be happy to share 
the results when we get finished with the audit.
    Chairman Loudermilk. Working inside the EPA, would it be 
common practice that 100 percent of text messages in a four-
year period would all be transitory or personal in nature?
    Mr. Christensen. We haven't completed our work so we 
haven't come to any conclusion based on our report.
    Chairman Loudermilk. All right. Thank you.
    Considering groups like the League of Conservation Voters 
can influence important policy decisions that the EPA weighs in 
on that eventually affect the daily lives of Americans, I find 
it necessary that communications like these are brought forward 
and recorded as federal records in order to ensure 
transparency. Without transparency at the EPA, as we see in the 
only text message example, there is an appearance of 
impropriety and undue influence on the EPA's decision makers 
that could essentially end up hurting American taxpayers 
without their knowledge of it ever occurring, and that is the 
context of where we want to go with this.
    I will yield back my time at this point. I am sure others 
have several questions that they would like to engage in, and 
at this time I recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    I would like to begin just by noting that there is a world 
of difference between deleting text messages and deleting a 
federal record and we need to be clear and careful in this 
matter.
    I am new to text messaging. I discovered I had no choice 
because my children would not return my phone calls, but they 
answer my text messages right away. And I discovered with my 
U.S. Congress-issued cell phone that almost all the text 
messages I get from the staff are: are you still stuck on the 
14th Street Bridge; I will meet you at the Science Committee 
room; votes are called--virtually nothing--I have never seen a 
vote recommendation or anything else. They have all been in 
emails or handed to me but never text message because they are 
a few things long.
    I want to just quickly repeat some of the points from Mr. 
Wester and Mr. Christensen. From Mr. Wester, he said there is--
Mr. Christensen rather, Phase 3, no evidence--``We uncovered no 
evidence of these individuals that used private email 
intentionally to circumvent federal recordkeeping 
responsibilities.'' Page 4, ``We made five recommendations of 
the EPA and the EPA agency reported completed corrective 
actions for two in June and July of '13, one in December of 
'13, the remaining two recommendations in November and December 
2014.'' And finally, the last page, ``The EPA has taken 
significant steps to publish policies that address compliance 
with NARA and the Federal Records Act requirements. And the 
EPA's leadership has shown a commitment to address many of the 
problems and weaknesses identified by the OIG.'' And in Mr. 
Wester's statement on page 5, ``The EPA has been responsive and 
cooperative with NARA staff in these dialogues and has provided 
all supplementary information NARA has requested.'' So there is 
a lot of good stuff up there.
    But in Dr. Schnare's written testimony, the last page, you 
say that ``There is no penalty if EPA employees''--``EPA 
employees are emboldened to flout FOIA and public record 
preservation duties. There is no penalty if they do, and senior 
management is pleased when they do. Destroying public records 
allows senior management to keep secret its outside contacts 
outside the agency, more free to collude with political 
advocates, including those who are supposed to be bound by 
nonprofit restrictions, disallowing direct lobbying.''
    Those are very strong statements, especially that senior 
management is pleased. How do you know this as a fact and did 
you ever take these to the Inspector General?
    Dr. Schnare. I know it is a fact because I am a witness to 
some of those statements and that is the kind of thing people 
will say at senior levels, including political appointee 
levels. You get--when you are as old and gray as I am and you 
have been around as long as I have, you know, you do work that 
is of a sensitive nature with people at high political office, 
and you have loyalty to them and they share statements that 
otherwise perhaps they might not have and should not have. And 
I am not going to name names here today, but the fact of the 
matter is people will say things like, yeah, I got rid of all 
of that or they will never find that; I have washed that 
machine clean. That happens. It is not frequent and I don't 
think you see junior members of EPA do it.
    I am very proud of my experience at EPA. I am very proud of 
the people at EPA and what they have done, but from time to 
time, the culture changes and it did change under the current 
Administration.
    With respect to making report to the Inspector General, I 
have done--from time to time called colleagues of mine in the 
office and pointed out things but not on this subject.
    Mr. Beyer. Can I ask, Mr. Christensen, you do have a 
hotline where people can report these allegations are ongoing?
    Mr. Christensen. Yes, the--
    Mr. Beyer. Or something like a hotline?
    Mr. Christensen. Yes, the OIG does have a hotline run by 
our Office of Investigations.
    Mr. Beyer. If someone like Dr. Schnare had reported these 
things, would you have taken him seriously and investigated 
them?
    Mr. Christensen. It would have been going into the Office 
of Investigations and they would have taken the appropriate 
action that they saw fit. It is outside of my office so I don't 
oversee that myself.
    Mr. Beyer. Dr. Schnare talked about the Richard Windsor/
Lisa Jackson email thing. Did you do any investigation on that 
and did you find any violations of federal law or federal 
regulation there?
    Mr. Christensen. During the audit that we did, the--titled 
``Congressionally Requested Inquiry into EPA's Use of Private 
and Alias Email Accounts,'' we did come across that and we did 
not find any violations, as you saw in the report.
    Mr. Beyer. Okay. Mr. Chairman, I yield back. Thank you very 
much.
    Chairman Loudermilk. Thank you, sir.
    I now recognize Mr. Bridenstine of Oklahoma.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    This is a question for Mr. Wester. In 2011 in a hearing 
before the House Oversight Committee Brook Colangelo, who was 
then the White House Chief Information Officer, said the 
following: ``We have also upgraded our email and Blackberry 
servers to improve reliability and we are the first 
administration to begin archiving SNS text and pin-to-pin 
messages on EOP Blackberry devices.'' The White House CIO made 
this statement back in 2011. Have other agencies started to 
follow this practice in the four years since then?
    Mr. Wester. So what has happened since then--I should say 
two things, first, that Mr. Colangelo is operating under the 
Presidential Records Acts within the White House, which are 
separate laws that govern what goes on in the rest of the 
federal government with the Federal Records Act upon which I am 
an expert witness in.
    The second point I would make is that since that time, 
agencies have identified text messaging and instant messaging 
along with email management as issues that they needed to 
address and have guidance put in place within their agencies so 
that they understand what the value of this material is and how 
effective it needs to be managed over time. So I would 
characterize it more as an emerging issue that needs to be 
dealt with first from a policy perspective and then by 
implementing technology to make that policy happen within each 
of the agencies across the government.
    Mr. Bridenstine. Has the EPA implemented these policies?
    Mr. Wester. The EPA is in the process of implementing 
policies specific to text messaging, and part of what they have 
discussed with us and our staff at the National Archives are 
the different policies that they are intending to or have 
implemented or intend to implement with training and specific 
policy guidance on how to identify substantive records versus 
transitory records what kind of actions individual EPA 
employees need to take to manage those substantive records and 
that have enduring or continuing value so that they are 
maintained through the end of their retention period.
    Mr. Bridenstine. So it would appear that if it is important 
for the White House, it would also be important for the EPA, is 
that correct?
    Mr. Wester. Yes, they are governed by two separate 
statutes, but yes.
    Mr. Bridenstine. Okay. On your agency's website there is a 
frequently-asked-questions section for agency records managers.
    Mr. Wester. Um-hum.
    Mr. Bridenstine. One of those FAQs is for instant 
messaging. The FAQ states, ``Agencies that allow IM traffic, 
instant messaging traffic, on their networks must recognize 
that such content may be a federal record,'' and it says, ``The 
ephemeral nature of IM heightens the need for users to be aware 
that they may be creating records using this application and to 
properly manage and preserve record content.''
    Mr. Wester, EPA has repeatedly told this committee that 
text messages are really just ``transitory records'' and 
therefore not subject to archiving rules. This FAQ seems to 
urge a bit more caution. Isn't it true that the text messages 
are just as capable as qualifying as a federal record as any 
other electronic communication?
    Mr. Wester. The short answer to your question is yes. One 
of the things that I tried to reiterate as part of my testimony 
is that transitory records have a retention of up to 180 days 
so the value of them is generally less than other federal 
records, but as it states on our frequently asked questions, 
with text messages and instant messaging and other kinds of 
more ephemeral--as it is characterized in the FAQ--electronic 
communication, that material still needs to be managed as 
federal record material if it rises to the level of being a 
federal record.
    Mr. Bridenstine. So regardless of the medium that the 
person uses to communicate, the content is what determines 
whether or not is a federal record----
    Mr. Wester. Yes, sir.
    Mr. Bridenstine. Okay. Is it appropriate for individual 
employees to be the arbiter--and this is just for, you know, as 
we go forward as a nation, how do we deal with these kind of 
activities--for the individual employees to be the arbiter of 
what is a record and what is not a record? The individual 
employee is responsible for determining that. Is that 
appropriate or should--and maybe the Federal Records Act be 
updated so that maybe a third party would be responsible for 
determining what is a Federal record and what is a personal 
record?
    Mr. Wester. So right now under the Federal Records Act 
individual federal employees, over 2 million of them across the 
government, are empowered to make that decision every day based 
on their understanding of the work that they conduct and we 
expect them to be able to understand the rules and guidance and 
make that determination of record versus non-record or record 
versus personal material and manage it appropriately.
    Over the longer term the archives hopes that technologies 
can be brought to bear to do auto categorization using machine 
learning and those sorts of things so that we can have these 
processes done in an automated way so that we can eliminate the 
possibility of human error or other sorts of things that would 
possibly--
    Mr. Bridenstine. Real quick, last question.
    Mr. Wester. Sure.
    Mr. Bridenstine. Is it true that under General Record 23 
and EPA Schedule 167 that senior officials may not delete 
electronic records without permission from NARA?
    Mr. Wester. I would have to look at the schedule and get 
back to you on that specifically.
    Mr. Bridenstine. Okay. I would appreciate that.
    Mr. Wester. I will do that. Thank you.
    Mr. Bridenstine. Thank you so much. I will yield back.
    Chairman Loudermilk. The Chair now recognizes the 
gentlewoman from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I want to 
start by aligning myself with the comments of Ranking Member 
Beyer. I do want to point out some concerns, Dr. Schnare, that 
you are mentioning, some problems that you observed at the EPA. 
I am a little troubled that you did not come forward in an 
effective way while you were there but suddenly now are 
expressing this concern in a more litigious fashion.
    So, Dr. Schnare, I want to have a better understanding of 
what hats you are wearing today, who you are working for and 
who is funding your organizations. Apparently the financial 
disclosure form you filled out for the Committee, it contains 
limited conflict-of-interest disclosures but of course we are 
big on transparency so please help me understand how you are 
supported in your work. So since your retirement you are listed 
as a--from the EPA you are listed as a Director for the Center 
for Environmental Stewardship at the Thomas Jefferson Institute 
for Public Policy, a Director of the Free Market Environmental 
Law Clinic, General Counsel for the Energy and Environmental 
Legal Institute, past Director of the Occoquan--I hope I said 
that right--Watershed Coalition, Chairman of the Coalitions of 
Environmental and Land Use Committee, and you are CEO of 
Schnare and Associates. So that is quite a list.
    So are we leaving out any corporations on which you serve 
as an officer or director or employee or any other entities 
that were established by you?
    Dr. Schnare. No, you are not, although Schnare and 
Associates no longer exists; I don't have time for that. The 
long list you gave is just a wonderful list of activities that 
I have been involved in. For example, in the Thomas Jefferson 
Institute for almost two decades I worked with them, all of it 
pro bono.
    Ms. Bonamici. Terrific. And I wanted to ask you, as Counsel 
of the Energy and Environment Legal Institute, so you filed 
many lawsuits against the EPA and other agencies and also have 
filed public submissions to propose to EPA rulemakings on 
behalf of, for example, oil, gas, and mining companies. So have 
you been paid for creating and/or filing those submissions?
    Dr. Schnare. I am General Counsel for Energy and 
Environment Legal Institute. I don't draw a salary. I work pro 
bono.
    Ms. Bonamici. So you don't receive any legal fees for your 
work on these lawsuits?
    Dr. Schnare. I don't.
    Ms. Bonamici. And how are your various corporations 
supported, through contributions or do you sell products or 
services?
    Dr. Schnare. We don't sell products or services. These are 
501(c)(3)'s, which of course can sell products and services but 
you have to pay taxes on those. The ones with whom I have been 
involved have all been 501(c)(3)'s that do not provide 
services.
    Ms. Bonamici. Do you receive financial or in-kind support 
from foundations or other nonprofits?
    Dr. Schnare. Much like every Member behind the dais that is 
an elected official, we all get donations and we get donations 
from folks in an interesting way. Implied in your question, for 
example, is whether there is a quid pro quo for the money we 
get, much like your money. When you are given donations, large 
donations from single individuals, no one here in this room 
would suggest that you were being purchased, that there is a 
quid pro quo. Those people donate to you because you take 
positions and have views with which they are comfortable and 
that they want to see supported, and that is true exactly for 
the kinds of--
    Ms. Bonamici. I am going to reclaim my time----
    Dr. Schnare. --things that we are--
    Ms. Bonamici. --and ask Mr. Christensen a question. Thank 
you.
    Dr. Schnare--Mr. Christensen, Dr. Schnare claims that 
senior agency officials were destroying records and interfering 
with FOIA requests. So I know your office conducted the 
examination of the complaints surrounding former Administrator 
Lisa Jackson regarding destruction or withholding of email. So 
can you explain to us what your office found? Did you find any 
evidence of willful destruction?
    Mr. Christensen. As I said in my oral statement, we did not 
find any evidence of intentionally destroying.
    Ms. Bonamici. And did you find any evidence of a pattern of 
encouraging employees for engaging in destruction or 
obstruction of records requests?
    Mr. Christensen. No, we do not.
    Ms. Bonamici. Okay. And, Mr. Wester, I wanted to ask you to 
follow up on a comment you made about the work that is being 
done to change over to a system that may automatically preserve 
records. Can you just--this is a Science, Space, and Technology 
Committee. Could you tell us a little bit about that?
    Mr. Wester. So one of the things that we are working on at 
the National Archives is implementing a policy for managing 
email records across the government called Capstone, and what 
we are encouraging agencies to do is capture all of their email 
records and identifying the level at which above--a certain 
line within an agency all of the records are presumptively 
permanent and would be eventually transferred to the National 
Archives for permanent retention and accessed by the public. 
And then beneath that line following this Capstone policy 
identifying different shorter-term retentions that still 
protect the rights and interests of the government, allow for 
agencies to carry out their business on a daily basis, and 
protect the rights and interests of citizens, and then be able 
to destroy those records after a shorter period of time, 
usually somewhere around seven years when there is a statute of 
limitations passing.
    Ms. Bonamici. Thank you. We look forward to following up 
with you on that effort.
    And I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Chairman Loudermilk. Thank you. I now recognize the 
Chairman of the full Committee, Mr. Smith from Texas.
    Chairman Smith. All right. Thank you, Mr. Chairman. First 
of all, I want to thank Dr. Schnare for his replies to some 
questions he just had. One, I want to thank you for your pro 
bono work. I know that has got to be a sacrifice. And secondly, 
I would like to thank you for your trenchant answer and 
response to putting contributions in context. I thought that 
was exactly right.
    Let me address my first question to all three of you and 
start with Mr. Wester. And I think a yes-or-no answer will be 
fine here. Using a commonsense standard, is it credible that 
someone could send 6,000 text messages on an official 
Blackberry or later on an official iPhone and that only one of 
those text messages would be work-related?
    Mr. Wester. I would want to see how--the content, the 
structure, and the whole volume of text messages was before I 
can make that determination.
    Chairman Smith. Right. And I agree with you and that was 
the reason for the subpoena, so we could get those records and 
determine that exact point.
    Mr. Christensen, is it credible?
    Mr. Christensen. Again, I would be similar to Mr. Wester 
here. I would need to see what the context was a----
    Chairman Smith. Okay.
    Mr. Christensen. --and we have the audit ongoing and we 
have not completed our work on that.
    Chairman Smith. Right. I understand that, but just using 
the commonsense standard, without saying definitively one way 
or the other, is it credible that 6,000 text messages would be 
sent that would not be related to work and the messages all 
sent on official devices?
    Mr. Christensen. I would question it and that would be why 
I would want to see the context before I reached a conclusion.
    Chairman Smith. Good. I have got two yeses to the subpoena.
    And, Dr. Schnare, what do you think?
    Dr. Schnare. Let me give you two more. I think that that 
level of texting is going to inevitably have something in it, 
but I would share with you that Judge Collier, who has to deal 
with this matter of law when we brought the matter, made the 
comment that he thought it was implausible and so I defer to 
the Judge.
    Chairman Smith. I like implausible. To me that is a synonym 
for incredible or not credible.
    And, Dr. Schnare, just to follow up on a couple of other 
things, this goes back to your written testimony, and I know 
you didn't have time to cover all of your written testimony in 
your verbal testimony, but in your written testimony you 
indicate that EPA officials ``lack a willingness to properly 
search for records when requested to do so. Could you elaborate 
on this and tell us what you base your opinion upon?''
    Dr. Schnare. Well, I can base it on personal opinion--or 
personal experience rather. When I was at the Agency I spent 
more time than anyone would like having to respond to civil 
discovery and to FOIA, which are quite similar. In two cases I 
had FOIA, which I was responsible for the final response, that 
required responses from several regional offices, several 
offices within the Agency, including the Office of the 
Administrator. We were under a time deadline, we had to 
communicate with the requester to get additional time, but the 
one office that never responded and refused to respond was the 
Office of the Administrator.
    And my approach to this, the only approach I had available 
besides talking directly to the young man who was supposed to 
be doing that job, was to go up my own chain of command, which 
I did, all the way to the presidential appointee and ask that 
he talk to Chief of Staff and shake things up and loosen it up. 
The answer I got back unhappily was just let it go.
    And so on two occasions we had situations where clearly 
there were documents within that office and clearly we weren't 
going to get them, and so I was forced to complete and close 
out the FOIA request without being able to obtain those 
documents.
    Chairman Smith. That says a lot. Also in your written 
statement you say there is a culture ``to keep secret what 
should be available to the public.'' Is this along the same 
lines of that personal experience you just recounted?
    Dr. Schnare. Yes.
    Chairman Smith. And then lastly, you mentioned in your 
statement, staff working directly in the Office of the 
Administrator simply refused to comply with FOIA. Anything you 
want to add to your observations there?
    Dr. Schnare. Well, I think I gave you the two examples----
    Chairman Smith. Okay.
    Dr. Schnare. --to which I was referring.
    Chairman Smith. Believe me, that was plenty. Thank you, Dr. 
Schnare.
    I yield back. Thank you, Mr. Chairman.
    Chairman Loudermilk. Thank you, Mr. Chairman.
    The Chair now recognizes the gentlewoman from Maryland, Ms. 
Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to our witnesses.
    I think today I am just going to focus on Dr. Schnare. And, 
Dr. Schnare, I just want to focus not on the Ph.D. part but on 
the J.D. part. You are a licensed attorney?
    Dr. Schnare. I am. I am licensed in Virginia and the 
District of Columbia.
    Ms. Edwards. And how long have you been licensed?
    Dr. Schnare. Over a decade.
    Ms. Edwards. And so when you testify here about things that 
other people said and everything, you are probably glad that we 
are actually not in a courtroom because a lot of that is just 
hearsay, isn't it?
    Dr. Schnare. What I observed myself is not and obviously--
--
    Ms. Edwards. No, you testified earlier about things that 
you heard other people saying or that you knew of other people 
saying but not that you heard directly, but never mind that. I 
just want to ask you for a moment you also testified that in 
the things that you heard that were blatantly illegal, don't 
you have an obligation as an attorney? What is your obligation 
as a licensed attorney? Because I mean I am not licensed 
anymore but I do remember taking the oath. What is your 
obligation?
    Dr. Schnare. Well, the obligation of any attorney is it to 
try to counsel people into the--what is known as the trail of 
the law or the path of the law.
    Ms. Edwards. No, no, no. You--as a licensed attorney, your 
obligation is to the court, to the bench, and in your 
profession, your ethical obligation is actually to report that 
wrongdoing, isn't it?
    Dr. Schnare. Yes, and----
    Ms. Edwards. Okay.
    Dr. Schnare. --the question is to whom----
    Ms. Edwards. So, thank you. You said yes, right?
    Dr. Schnare. --so if you report to the--your own chain, you 
have done that.
    Ms. Edwards. Thank you. Thank you. I don't think so. I 
think as a licensed attorney, you have more of an obligation 
than that.
    I just want to go back to some of the--you referred to 
yourself as a climate change skeptic, right?
    Dr. Schnare. I have no idea what that has to do with text 
messages today but----
    Ms. Edwards. Let me just ask----
    Dr. Schnare. --that is certainly true.
    Ms. Edwards. --it is not up to you to determine what I can 
ask you.
    You referred to yourself as a climate change skeptic, is 
that correct?
    Dr. Schnare. Yes.
    Ms. Edwards. Right. And so I want to look at something that 
I find again on the J.D. part and not on the Ph.D. what is 
disserving. In 2011 an attorney representing the University of 
Virginia gave sworn testimony regarding a lawsuit you were 
involved in surrounding Dr. Michael Mann's emails. That 
attorney testified and I want to quote this. ``The fact that 
Dr. Schnare has, for whatever reason, felt compelled to make 
misleading statements to me about his employment status with 
the EPA and demonstrably false statements about his having 
obtained requisite approvals to represent the American 
Tradition Institute in this lawsuit while still being employed 
by the EPA is extremely troubling and has destroyed Dr. 
Schnare's credibility in my mind.''
    That is from a university--an attorney representing the 
University of Virginia that is pretty strong accusations from 
the Associate General Counsel at UVA. So how do you actually 
represent, Dr. Schnare, an outside client without clearance 
from the EPA?
    Dr. Schnare. What----
    Ms. Edwards. Is that appropriate?
    Dr. Schnare. What you do is you get permission, which I had 
done and what many employees do. There is a process for getting 
and----
    Ms. Edwards. So you got permission to represent a client 
who was a challenging the--challenging your employer? I find 
that really----
    Dr. Schnare. No, that is not at all accurate, and those 
kinds of inaccuracies from someone who has been a lawyer and an 
attorney is disturbing to me.
    Ms. Edwards. Oh, you know what, I am just like, you know, 
just a regular old street lawyer, you know, so don't hold that 
against me.
    Let me see. Dr. Schnare, in your original testimony that 
you circulated to the Committee, to your credit you did expunge 
an element of that testimony that might have defamed an 
individual. However, in the original testimony you accuse 
someone of not cooperating in the searches of Administrator's 
records and admitted that you were aware they had not done 
adequate searches. In fact, you wrote, ``In each case I was 
forced to respond to the FOIA request without his input despite 
knowing that in doing so the responses were legally deficient.
    Is it your obligation as an attorney to submit responses 
that are legally deficient?
    Dr. Schnare. Of course not but that doesn't mean that that 
isn't the way it sometimes happens----
    Ms. Edwards. So----
    Dr. Schnare. --especially when your senior managers----
    Ms. Edwards. --let me reclaim my time----
    Dr. Schnare. --tell you what to do and how to do it.
    Ms. Edwards. --I only have 30 seconds, Dr. Schnare, and it 
is not yours. So I just want to be really clear that you have 
submitted legally deficient responses, you have misled a 
general counsel, you have witnessed wrongdoing and not reported 
it. Why is it that someone shouldn't file a claim against you 
to have you disbarred and to have your license removed?
    With that, I yield the balance of my time.
    Chairman Loudermilk. Thank you. And again, we appreciate 
the witnesses volunteering your time to come here, and you are 
not compelled to answer questions that are outside the scope of 
this hearing. We want to make sure the hearing stays focused on 
the issue at hand. And again, I want to tell you we appreciate 
each and every one of you taking your time to be here.
    I now recognize the gentleman from Florida, Mr. Posey.
    I recognize the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Okay. Thank you, Mr. Chairman. You know, I 
spent 26-1/2 years in the Air Force and I had--as a commander I 
had a lot of opportunities to deal with the Inspector General 
on many different occasions and issues, and I have got some 
real concerns this morning, Mr. Christensen, that I would like 
to address with you.
    The EPA Office of Inspector General's September 13, 2013, 
report found no evidence that the EPA used, promoted, or 
encouraged the use of private nongovernmental email accounts to 
circumvent records management. Were you at the EPA at that time 
in the Inspector General's Office at the time that 
investigation was done?
    Mr. Christensen. I was within the EPA when that audit work 
was done.
    Mr. Johnson. In the Inspector General's Office?
    Mr. Christensen. Yes, sir.
    Mr. Johnson. Okay. This finding is even more surprising 
given that revelation of the use of this secret account led to 
both Administrator Lisa Jackson and senior official Scott 
Fulton's resignation. What is puzzling to me is learning that 
the investigators never actually spoke with Administrator Lisa 
Jackson or Scott Fulton, who both were at the EPA when the OIG 
received the request for an investigation.
    In my experience with the Inspector General, certainly 
within the United States Air Force, the veracity of the 
investigation and the consequences and the accountability 
associated with the findings were taken very, very seriously by 
everyone. So why did the OIG fail to interview Administrator 
Jackson and Scott Fulton even though they were still at the 
agency when the investigation began?
    Mr. Christensen. Sir, I was in a different position at that 
time and I would have to get back to you----
    Mr. Johnson. Okay. Please get back to me.
    Mr. Christensen. --because I did not----
    Mr. Johnson. How did the EPA Office of Inspector General 
conclude that senior officials did not use private or alias 
email addresses to circumvent records management without ever 
speaking to these individuals? I mean it is pretty common sense 
that there is no way they could have, correct?
    Mr. Christensen. There could be other evidence but I would 
have to get back to you, sir, on that----
    Mr. Johnson. Okay. Please get back to me on that.
    According to the testimony we have heard this morning, it 
appears that the office in charge of FOIA was not aware that 
the Richard Windsor email account was associated with 
Administrator Lisa Jackson. If this is true, then didn't having 
an alias email account violate EPA's own policies about having 
an unidentifiable email account? If that is true that that 
Richard Windsor account was associated with Administrator 
Jackson, didn't that violate EPA's own policies?
    Mr. Christensen. I would have to look into that and get 
back to you.
    Mr. Johnson. Do you know the policy?
    Mr. Christensen. I have seen the policy, sir.
    Mr. Johnson. As the Assistant Inspector General, if you 
know the policy, doesn't that violate the policy? That is a 
yes-or-no question.
    Mr. Christensen. I would have to get back to you and 
confirm.
    Mr. Johnson. Okay. Please do that also.
    The 2013 report's finding that the EPA did not use private 
email to subvert the Federal Records Act also seems 
questionable given that Region 9 Administrator Jared Blumenfeld 
admitted to having misled your investigators and subsequently 
turned over 1,500 pages of emails sent via his private email 
account. Are you aware that the Region 9 Administrator Mr. 
Blumenfeld admitted that he lied to your investigators about 
his use of that private email account for official business?
    Mr. Christensen. I have heard that, sir, and it was the 
auditors and I think we have heard today that the government 
email was cc'ed on----
    Mr. Johnson. Do you plan on amending your conclusions in 
your report to reflect that evidence?
    Mr. Christensen. There is no plan right now, sir.
    Mr. Johnson. Why not? Are there no consequences in the EPA 
when violations of the EPA's policies are conducted? Why would 
you not amend the report?
    Mr. Christensen. That report was put out based on what we 
had at the time.
    Mr. Johnson. I said amendment. I said are you planning on 
amending the report?
    Mr. Christensen. No, we are not, sir.
    Mr. Johnson. You are not? Okay. Well, I have got to 
question the veracity of the EPA's OIG operation. When can we 
expect you to get back to me on the questions that you said you 
would get back to me on?
    Mr. Christensen. We will get back to you this week, sir.
    Mr. Johnson. Okay. Very good. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Loudermilk. Thank you.
    And as all Members are aware, there are votes currently 
going on on the Floor so this committee will stand in recess 
until ten minutes after the last vote.
    [Recess.]
    Chairman Loudermilk. If everyone will take their seat, we 
will reconvene this hearing.
    We appreciate your indulgence as we had to go deal with 
matters of the State.
    At this point the Chair recognizes the gentleman from 
Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Christensen, I appreciate your willingness to be here 
and testify. I appreciate the work that the Inspector General's 
Office does. It is absolutely critical to the functioning of 
our government. And I just want to ask you, in your work with 
EPA have you found them to be forthcoming? I mean when you have 
requested documents and other information, have they been 
forthcoming with you?
    Mr. Christensen. Yes, sir.
    Mr. Palmer. Well, I find that interesting considering that 
the Inspector General for the EPA was one of 47 Inspectors 
General who sent a letter to the Committee on Oversight and 
Government Reform complaining that federal organizations, 
including the EPA, were impeding investigations by withholding 
information. Were you aware of that?
    Mr. Christensen. Yes, sir. That was the deal with the CSB 
impeding an investigation.
    Mr. Palmer. My impression was it wasn't just the CSB but do 
you agree with Mr. Elkins' assessment that the EPA was not 
forthcoming?
    Mr. Christensen. There have been times where the EPA has 
not been forthcoming at the beginning but eventually we have 
gotten all the documentation.
    Mr. Palmer. Now, in regard to the CSB matter, and this is 
in the context of the problems with EPA not coming forward, he 
said that this impairment by the EPA was ongoing when he 
arrived four years ago. Now, this testimony was given September 
10, 2014, and he said it is still not resolved. And it seems to 
me that there is a culture here of almost, for lack of a better 
way to put it, lawlessness.
    Mr. Christensen. I believe I stand corrected when I said 
CSB earlier. I believe that is with the Office of Homeland 
Security, sir, within EPA.
    Mr. Palmer. That particular reference was to Homeland 
Security; it was also in regard to the CSB. I have got the 
testimony right here. And I just want to ask you. Does it not 
seem odd that the EPA would in your opinion be cooperative when 
they haven't been with other people?
    Mr. Christensen. Ultimately, we have--for audits we have 
had cooperation ultimately. I think with the testimony you are 
talking about was with some of our investigations, which would 
be underneath the Office of Investigations.
    Mr. Palmer. Okay. Dr. Schnare, in your testimony you talk 
about a culture of secrecy, and I just want to read something 
here that you said in your written testimony that says EPA 
prepared an 83-page PowerPoint presentation on how to use 
electronic tools to collaborate with external partners. This 
presentation encourages use of instant messaging, other real-
time correspondence tools, and even encourages using AOL and 
Yahoo and asking third parties to set up chat rooms, the 
purpose of which, according to this was, is that if it--it 
encourages employees to help outside parties to sponsor the 
web-based collaboration tools, noting that as long as we are 
only participants, not administrators of a web collaboration 
site, the site is not limited by those same FOIA and Public 
Records Act constraints. I can't think of a better word to use 
than conspiracy. If you have got a better word for this, it 
seems that this is organized in an attempt to keep certain 
information from the public and from Congress for that matter. 
How do you respond to that?
    Dr. Schnare. Congressman, EPA employees, like many 
government employees, have the challenge of trying to do their 
job, stay on top of new technologies, use everything they can, 
and we encourage innovation, but there came a time in the 
Agency in 1980 when we had a disagreements within the Agency. 
They were kept within the Agency and there was one point, and 
then at that point in time after there was a culture shift and 
there was a lot of leaking going on, a lot of whistleblowing 
without being called a whistleblower, it was a situation in 
which younger people at the Agency simply felt they should 
speak out on things they cared about personally and they 
disregarded the authority and the chain of command. It 
happened.
    Now, the next change in culture really came with the 
current Administration where in fact basically it was Katy bar 
the door; we are going to do anything we can. And so what we 
ended up seeing is a great deal of we will just keep this to 
ourselves.
    Mr. Palmer. Well, in regard to the 5,932 emails and the 
fact that, as I understand it, there are two months of text 
messages that are missing, it kind of begs the question how 
much work Ms. McCarthy was able to get done? I mean I don't 
think my teenage daughters text that much.
    Mr. Chairman, I believe my time is expired. I yield.
    Chairman Loudermilk. Since it appears we have a few more 
minutes, we will do a short second round. The Ranking Member 
has agreed to that.
    And with that I will recognize myself for a question.
    Mr. Christensen, is there a written policy or an existing 
policy within the EPA that regulates or restricts the private 
use of cell phone--government/taxpayer-issued cell phone by 
employees of the EPA?
    Mr. Christensen. Are you talking cell phone usage or with 
emails and text messages?
    Chairman Loudermilk. Well, since you can use the cell for 
text, for email, for all of those, I would anticipate that 
whatever policy would cover any use of the cell phone so----
    Mr. Christensen. Yes, in June 2013 the records management 
policy was amended to include the personal email and private--
from private email, so that would cover the cell phone. Also in 
February 2015 the--they amended the records management policy 
to cover the text messaging.
    Chairman Loudermilk. You say they covered it. What is the 
regulation? Does it prohibit? Is there a certain number or 
amount that you can use? Specifically getting at----
    Mr. Christensen. It doesn't get into anything on the 
number. It is just how you would do the records management for 
those.
    Chairman Loudermilk. So if the information that we are 
getting is correct, that for a four-year period that cell phone 
in question was used exclusively--text message-wise exclusively 
for personal use, you are saying an exclusive personal use of a 
cell phone would not violate existing EPA policy?
    Mr. Christensen. There was none that I know of but I would 
have to get back to you on that, sir.
    Chairman Loudermilk. Dr. Schnare, is that a common--in your 
experience in the EPA, using a taxpayer-funded device 
exclusively for personal use, was that a common practice or was 
it known to violate at least common practice or some type of 
policy?
    Dr. Schnare. Mr. Chairman, the policy is laid out in our 
email policy, not in our records management policy. And it is 
clear that while there are uses--and this was--this was what 
happened when the internet first came in and was used a lot--it 
was made clear that the use of email and voiceover protocol and 
the like for personal purposes could be done but should not be 
the dominant use. And so, yes, you are allowed to do some of 
that and it was more on the order of, honey, I am on my way 
home or please pick up a loaf of bread, but for the exclusive 
use for personal purposes would just be--it is not done that 
way. I don't know anyone that would do it that way.
    Chairman Loudermilk. Mr. Wester, I know that this is 
outside of your purview of the actual regulations, but with 
your working with other agencies, have you encountered to where 
a public-funded or taxpayer-funded government-issued device was 
allowed to be exclusively used for personal use?
    Mr. Wester. I am not familiar with anything like that. Most 
agencies have appropriate-use policies for different kinds of 
office equipment that is given to them, and that is usually 
where those kinds of things are covered.
    Chairman Loudermilk. Okay. Thank you.
    With that, I now recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Chairman Loudermilk, one thing that I would love to clarify 
is that Members from the majority today have made statements 
about Lisa Jackson leaving the EPA over the Richard Windsor 
email issue, and I just never heard that before on our side and 
not necessarily right now but if the majority could share the 
source of that information, we would very much appreciate it.
    Mr. Christensen, we mentioned the Chemical Safety Board, 
the CSB. Is that part of the EPA?
    Mr. Christensen. It is not part of the EPA but the EPA OIG 
has jurisdiction over the Chemical Safety Board.
    Mr. Beyer. So it is your responsibility but it is an 
independent agency?
    Mr. Christensen. Yes, sir.
    Mr. Beyer. So if they have had problems with transparency 
and the like, it does not necessarily reflect poorly on the 
EPA?
    Mr. Christensen. That is correct, sir.
    Mr. Beyer. How many employees does the EPA have, Mr. 
Christensen?
    Mr. Christensen. Just over 15,000 right now, between 15 and 
16,000.
    Mr. Beyer. I know this is an evolving art but do you have 
any idea how many text messages from each employee would be 
considered a federal record?
    Mr. Christensen. I have no idea on that, sir.
    Mr. Beyer. Certainly not every text message, though. I am 
just trying--we are trying----
    Mr. Christensen. I have no information to respond to that, 
sir.
    Mr. Beyer. I am trying to do the math on 2009, six years 
times 15,000 employees times the number of text messages and 
wondering how much time, effort, and money it is going to take 
to review all that.
    Mr. Christensen. It would be a big effort, sir.
    Mr. Beyer. When the GAO and the IG are asked to work 
together on the same issue, how do you work that out?
    Mr. Christensen. We haven't been asked to work together on 
any issue that I know of, sir.
    Mr. Beyer. Okay. You have certainly been doing this for a 
while. Does the issuance of the subpoena by this committee, 
will that interfere in any way with your ability to carry out a 
timely investigation?
    Mr. Christensen. It shouldn't impact our audit work, sir.
    Mr. Beyer. Mr. Chairman, that is all I have so I yield 
back.
    Chairman Loudermilk. I thank the gentleman and recognize 
the gentleman from Texas, Mr. Babin, for five minutes.
    Mr. Babin. Thank you, Mr. Chairman.
    With an Administration that has claimed that it would be 
the most transparent in history, we seem to have a repeated 
pattern of the exact opposite. I believe we need a new level of 
accountability not only at the EPA but for this entire 
Administration.
    And, Dr. Schnare, in your opening statement you describe a 
culture of secrecy at the EPA. What can be done in the future 
to ensure more accountability and transparency in terms of what 
the leadership should be telling folks?
    Dr. Schnare. I am going to offer you something I have been 
thinking about in that regard. I don't believe it is possible 
to easily motivate or to alter the culture at the top of an 
agency but I do think there are some things that could be put 
in place that would have an effect on the career employees who 
can actually change the culture on their own.
    It is very difficult to reprimand a person for failing to 
follow the Freedom of Information Act. They are never credited 
for doing a good job; it is just part of that ten percent other 
duties as assigned. But I believe that if there were a sanction 
that went to the pocketbook of the employee----
    Mr. Babin. Yes.
    Dr. Schnare. --that said you don't do that job and you 
suffer a $5,000 fine out of your own pocket, then the employee 
would go up his management chain and say I am not doing that 
for you, sir. Ma'am, I am giving these emails away. Because 
they are not going to put themselves at risk. And so that is 
something that this body would have to look at, what kind of 
sanctions would be available, but presently, there really are 
none.
    Mr. Babin. But you--if I understood you to say the senior 
leadership at the agency or any agency for that matter, they 
are the ones that need to set the standard and they lead to a 
culture of secrecy or not, don't you agree?
    Dr. Schnare. Congressman, policy is personnel. There is no 
way around it.
    Mr. Babin. Right.
    Dr. Schnare. It is the people that make the difference. All 
I am suggesting to you is that in this town over my last 40 
years that is not an approach that I see as very helpful. 
People do what they do. But I do think there are ways to get to 
it that would have a greater effect by making the public 
servants, the people who come into government particularly 
because they want to serve and who are honest and good people.
    Scott Fulton's name was mentioned earlier today. Scott 
Fulton is one of the most honorable men I know. He is a great 
guy. What happened and how he was involved in an investigation 
I have no idea but I know this: Scott Fulton is not the kind of 
guy who would lie, cheat, or steal.
    Mr. Babin. Well, and I have heard the opposing side, the 
other side today talk about thousands and thousands, the vast 
volume of emails or texts. Does that really matter whether it 
is a vast volume or whether it is just a few?
    Dr. Schnare. Let me just share very simply----
    Mr. Babin. It is still a record. It is a record.
    Dr. Schnare. That is right. And in a case I brought against 
EPA, when we settled the matter, EPA came to me and said as 
part of the settlement we are going to require Region 10 to--
every employee in Region 10 to be re-trained on FOIA because 
clearly they did not respond adequately in this case. That 
wasn't our request and I don't really think it came from EPA. I 
think it came from the AUSA who was trying to negotiate a deal.
    But the reality is it is up to the individuals to do the 
job and you have got to give them the tools. And I credit the 
Agency and in particular Larry Gottesman, for doing a wonderful 
job in getting the tools available. It is, however, the 
culture.
    Mr. Babin. All right. Following that up then, during your 
time at the EPA, how often was agency staff reminded that what 
they were working on could be construed as federal records and 
that would need to be preserved? Did you hear this? Did you 
experience it?
    Dr. Schnare. Well, we had--with some regularity there was 
an online training the folks had to do and they do regular 
time. Now, at the end of my career I was a lawyer and we had to 
do more training than most so I don't know how it reached out 
to everyone. But every employee that comes into the agency is 
required to get FOIA training. What we found, though, in our 
recommendations briefly was that no one remembers it. So when 
we built the system to try to help people do it, we helped re-
teach them what their responsibilities were, but that doesn't 
reach to text messages, it doesn't reached to clearing out your 
own email box for the most part.
    Mr. Babin. And it needs to be so.
    Dr. Schnare. I agree, sir.
    Mr. Babin. Okay. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Loudermilk. Thank you, Mr. Babin.
    Mr. Palmer. Would you yield the balance of your time?
    Chairman Loudermilk. The Chair will recognize Mr. Palmer 
for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    I just want to make a clarification in regard to the 
testimony by Arthur Elkins, the Inspector General for the EPA, 
that that was specific to the EPA. And I will read from the 
testimony a question asked by Congressman John Mica, a 
Republican on the Oversight and Government Reform Committee, 
and he says this, he says, ``Mr. Elkins, with the EPA it 
appears that actions taken by the EPA in really ignoring you 
and allowing whistleblowers and others to be intimidated, this 
has undermined your position as Inspector General to conduct 
your legitimate investigative oversight responsibilities. Would 
that be a fair statement?'' Mr. Christensen, I would like to 
add this to my comments to you, that Mr. Elkins' response was, 
``yeah, that would be a fair statement.''
    So in regard to this pattern of obstruction and impeding 
investigations, I think it is fairly clear. In regard to the 
comments made to Dr. Schnare about coming forward, I think that 
when you add to the impeding of information being brought 
forward, the withholding of documents and atmosphere of 
intimidation, I do believe there is a culture at EPA that needs 
to be thoroughly investigated.
    I yield the balance of my time.
    Chairman Loudermilk. First of all, I want to thank the 
witnesses for your attendance here today and your testimony. 
There is still a lot that needs to be determined here and 
hopefully as we receive the results from our subpoena that we 
will be able to continue on.
    We would like to in the future have more cooperation out of 
these agencies, especially when we are just trying to do the 
will of the people and make sure that we are following our own 
laws and policies.
    The record will remain open for two weeks for additional 
written comments and written questions from the Members. This 
hearing is adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                   Answers to Post-Hearing Questions
Responses by Mr. Paul M. Wester, Jr.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Mr. Kevin Christensen

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Dr. David Schnare
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record


                             McCarthy text
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                      EPA Web Collaboration Tools
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                      Senate EPW letter to EPA OIG
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                   EPA OIG 2013 report re EPAs Use of
                    Private and Alias Email Accounts
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

             Senate EPW Minority Report re EPAs FOIA and
                   Federal Records Failures Uncovered
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
